                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: I07080027                                                                     Page 1 of 1



         The Office of Investigations-Office of Inspector General initiated an investigation for
         clarification on expenses claimed by an institution' during a National Science Foundation
         award.2 The investigation did not find any evidence of fraud. Therefore, this investigation is
         closed.




NSF OIG Form 2 (1 1/02)
